                            Office of the Inspector General

September 27, 1999

John R. Dyer
Principal Deputy Commissioner
 of Social Security

Acting Inspector General


Management Advisory Report – Identifying and Validating Non-Mission Critical
Commercial Software for Year 2000 Compliance (A-14-99-11003)


Attached is a copy of our subject final management advisory report. The objective of
this review was to determine whether the Social Security Administration’s non-mission
critical commercial software had been identified and validated for Year 2000
compliance.

You may wish to comment on any further action taken or contemplated on our
recommendations. If you choose to comment, please provide your comments within the
next 60 days. If you wish to discuss the final report, please call me or have your staff
contact Daniel R. Devlin, Acting Assistant Inspector General for Audit, at
(410) 965-9700.




                                               James G. Huse, Jr.

Attachment
           OFFICE OF

    THE INSPECTOR GENERAL



SOCIAL SECURITY ADMINISTRATION



  IDENTIFYING AND VALIDATING

     NON-MISSION CRITICAL

         SOFTWARE FOR

     YEAR 2000 COMPLIANCE


 September 1999   A-14-99-11003




 MANAGEMENT

ADVISORY REPORT

                            Office of the Inspector General


John R. Dyer
Principal Deputy Commissioner
 of Social Security

Acting Inspector General


Management Advisory Report – Identifying and Validating Non-Mission Critical
Commercial Software for Year 2000 Compliance


This final management advisory report presents the results of the subject review. We
conducted this review to determine whether the Social Security Administration’s (SSA)
non-mission critical software had been identified and validated for Year 2000 (Y2K)
compliance. We met with SSA management on several occasions to discuss this
review, and, while management has developed plans to address some of our concerns,
we believe there are still issues that warrant management’s attention.

The Office of Management and Budget (OMB) Circular A-130, Management of Federal
Information Resources, February 8, 1996, states that agencies should establish
oversight mechanisms that ensure each information system meets agency mission
requirements. The General Accounting Office Guide, Year 2000 Computing Crisis: An
Assessment Guide (GAO/AIMD-10.1.14), September 1997, states that an enterprise-
wide inventory of information systems for each business area should be conducted to
provide the necessary foundation for Y2K program planning. The Guide also states that
agencies must determine which systems: (1) are mission critical, (2) support important
functions, and (3) support marginal functions.

SSA’s heavy reliance on automated systems to accomplish its mission has presented it
with the enormous challenge of reviewing and converting all of its computer software for
Y2K compliance. SSA’s Chief Information Officer has overall responsibility for the
Agency’s Y2K program; however, the Office of Systems (OS) has the day-to-day
responsibility of ensuring that changes are made to systems that support SSA’s core
business processes. SSA defined mission critical systems as those systems that
support core business processes. OS is also coordinating with other SSA components
to ensure that changes are made to less critical systems, many of which are kept on
SSA servers and personal computers. SSA estimates that it is supported by at least
2,825 local area network servers with 59,095 workstations.
Page 2 - John R. Dyer

We focused our review on Y2K readiness of the non-mission critical commercial
software maintained on SSA servers. We limited our review to non-mission critical
commercial software on SSA servers because: (1) both GAO and an independent
contractor reviewed SSA’s mission critical software; (2) we wanted to expeditiously
alert SSA about any of our concerns; and (3) software on servers is shared by multiple
users and would, therefore, be more important to SSA components than software on
personal computers.

We judgmentally selected servers used by the Offices of Disability Operations, Hearings
and Appeals, and Quality Assurance as well as the Atlanta and Kansas City program
service centers, teleservice centers, field offices, and regional offices. We selected
these offices because they represented a cross section of SSA’s components. Because
our sample of servers was not randomly selected, the results of our review cannot be
projected.

With the assistance of the Office of Systems, Year 2000 Project Office, we obtained
inventories of all non-mission critical commercial software and analyzed these
inventories by region/component. We then compared the regional/component
inventories to the inventory SSA submitted to OMB. We used the Check 2000 Client
Server software (Check 2000)1 to scan SSA servers to identify commercial software
applications not included in SSA’s inventory of non-mission critical commercial software.
Similarly, we scanned SSA servers to identify data base and spreadsheet files
containing two-digit dates. We selected data base and spreadsheet files for testing
because those files were more likely to contain dates that were used in calculations and
formulas. However, word processing files could also be at risk, specifically if they use
embedded functions such as macros.2

Our review identified two areas of concern that we believe management should
address to ensure Y2K compliance of SSA’s non-mission critical commercial software.
These areas are discussed below.

Non-Mission Critical Software Inventory Was Incomplete
SSA’s Y2K inventory of non-mission critical software was incomplete. We tested
57 (approximately 2 percent) of SSA’s estimated 2,825 servers. We identified
216 copies of 22 commercial software applications that did not appear on SSA’s
Y2K inventory of non-mission critical software. Of the 57 servers tested,
52 (91 percent) contained at least 1 copy of the 22 software applications. Three of the
22 were on 49 SSA servers. The 22 software applications represented a variety of
software applications. These applications included communications, word processing,
and developmental software. For example, three were developmental applications used
to develop in-house software. Appendix A shows by component/region the number,
software vendor, and function of the 22 software applications identified by component.

1
    This is a Y2K testing tool for networked personal computers licensed by Greenwich Mean Time.
2
    Macros are a series of keyboard and mouse actions recorded to a single key, symbol, or name.
Page 3 - John R. Dyer

Without a complete Y2K inventory of non-mission critical software maintained on SSA’s
servers, SSA cannot ensure that all of its commercial software is Y2K compliant. Also,
an incomplete inventory affects the validity of SSA’s periodic reporting to OMB on the
status of its Y2K progress—especially SSA’s May 1999 assertion that its non-mission
critical systems inventory and Y2K validation are complete.3

We identified certain conditions that we believe are the fundamental causes of the
incomplete Y2K inventory. The instructions to complete the non-mission critical
software inventory were mostly verbal. We believe verbal instructions could easily be
degraded and changed especially with turnover of personnel and the communication
through the lines of authority below the SSA Y2K representatives, referred to as Deputy
Commissioner Coordinators (DCC). The DCCs were responsible for identifying the
software applications used by their respective components and reporting the inventories
to OS. Our review determined that the DCCs did not use automated inventory tools to
complete the Y2K inventory. Instead, they manually prepared the Y2K inventories of
commercial software.

As a result, there was no consistency in the approach used to complete the Y2K
inventory, and the inventory was prone to human errors and omissions. For example,
our analysis of regional/component inventories revealed that the Seattle Region did not
report its entire inventory until we questioned why it reported such a limited number of
software applications. Also, the inventory for the Commissioner’s Office continues to
show no non-mission critical commercial software.

The Y2K inventory of software and validation of its Y2K compliance should be
completed for all non-mission critical software, especially since there may be a risk that
a noncompliant software application important to SSA operations will not be operational
in the year 2000.

Data Bases and Spreadsheets Contain Two-Digits
Our tests of 167 data base and spreadsheet files used on 18 servers identified 54 files
(about 32 percent) with two-digit dates. Thirty of the files were data bases and 24 were
spreadsheets. Appendix B shows the number of files identified with two-digit dates by
SSA component. Although our test was useful in that we identified files with two-digit
dates, we did not analyze the files to determine how the two-digit dates were used or
assess the importance of the data files containing two-digit dates.

We believe the next step in ensuring Y2K compliance is an evaluation of these files to
determine the true consequences of two-digit dates and the importance of the data files.
This can only be determined after the context of the dates’ use is understood. For
example, some data files may use the date as the report heading, while other files may
use the date in significant calculations. In addition, the way an application interprets a
two-digit date may be different than the user intended and may differ between

3
    SSA reports the status of its year 2000 progress to OMB each quarter.
Page 4 - John R. Dyer

applications. Microsoft reports this risk for its products. For example, for Excel 97, an
application that SSA uses at its offices nationwide, Microsoft reports: “If a date is
pasted from one application to another using only the last two digits of the year,
Microsoft Excel might parse the date differently than the originating application
calculated it.”

Parsing relates to an application’s interpretation of a two-digit date. For example,
Microsoft Excel 97 interprets 1/1/00 through 12/31/29 as 1/1/2000 through 12/31/2029.
Similarly, it interprets 1/1/30 through 12/31/99 as 1/1/1930 through 12/31/1999. This
example suggests that users who continue to use two-digit dates in their data files must
know how an application interprets that date.

Files with two-digit dates could disrupt SSA’s non-mission critical operations with
system failures or corrupt the information in the file. A file is corrupt when it continues
operating but produces unpredictable results. The result may be degradation of
reporting or unexplainable system behavior. For example, one of the most visible
problems can be a file sort on two-digit year fields. Storing 1999 as 99 and 2000 as
00 will cause 00 date fields to sort before the 99 date fields. Therefore, reports
generated from the sort will be wrong.

Some of the data files identified with two-digit dates may have been reviewed before our
briefings with SSA on the results of our review. However, SSA’s response did not
indicate they had been previously reviewed.

Conclusion, Management Response, and Suggested Actions

We presented the results of our review to SSA. Although not formal, we recommended
that SSA: (1) evaluate the risk that commercial applications have not been identified
and inventoried by each component, (2) provide components access to Y2K software
tools to ensure the Y2K inventory is complete, (3) validate Y2K compliance of any
additional software identified, and (4) identify important data files needed for continued
operations and determine whether those files contain two-digit dates and correct those
dates where needed.

SSA took an aggressive approach in evaluating the results of our review. SSA provided
explanations for 13 of the 22 applications that were not on the Y2K inventory of non-
mission critical commercial software. (For example, 4 of the 22 applications were on an
OS list of nationally distributed software, but they were not on the official Y2K
inventory.) SSA is still evaluating the remaining nine applications. After evaluating the
54 data files containing two-digit dates, SSA reported that the files were Y2K compliant
and not problematic. We believe similar evaluations are needed to determine the
importance and the potential impact of other data files containing two-digit dates.

In response to our recommendations, OS determined whether all non-mission critical
commercial software had been inventoried. As a result, OS determined that no further
Page 5 - John R. Dyer

action is needed for SSA field operations because users are unable to add commercial
software to the servers without the assistance of OS. With respect to Headquarters
components, OS has requested that each component interrogate local servers at least
twice before January 1, 2000, to ensure he non-mission critical Y2K inventory is
complete. OS will also make automated Y2K software tools available to all
components. SSA did not indicate that any actions were planned to review data files.

While SSA deserves credit for its leadership in addressing the concerns identified
during our review, SSA remains at risk that not all of its non-mission critical commercial
applications and related data files will be corrected before January 1, 2000. At
particular risk are commercial applications that have not yet been identified in its
non-mission critical Y2K inventory and important data files containing two-digit dates.
SSA should ensure that: (1) all commercial applications are inventoried and validated
for Y2K compliance, (2) important data files containing two-digit dates are corrected
where needed, and (3) components are advised of any risks inherent with using
two-digit dates for each of the commercial applications supported by SSA.

AGENCY COMMENTS AND OFFICE OF THE INSPECTOR GENERAL
RESPONSE

In response to our draft management advisory report, SSA has either agreed to take
action or has taken action to address the concerns we raised. SSA also provided
additional information to clarify its efforts in addressing Y2K preparedness issues.
Specifically, SSA has purchased and is using two software packages to assist in
identifying files with two-digit dates. In addition, the Agency has instructed certain
components to review reports generated from these utilities to investigate and take
action on potential Y2K problems. The full text of the Agency’s comments are included
in Appendix C.

There are two additional issues that we wish to clarify. In its response to our first
recommendation, SSA stated the DCC tracking report was not intended to be the
complete inventory of all applications and commercial products used by SSA
components. We used the DCC tracking report because it served as the basis for the
Commissioner’s certification to OMB that SSA’s non-mission critical software was Y2K
compliant.

Second, the Agency took exception to our statement that we found no evidence SSA
provided information about the risks of using two-digit dates or directed components to
inventory and evaluate data files and correct them where needed. We acknowledge
that the corrective measures the Agency took to address potential Y2K problems
indicate an awareness of the risks of using two-digit dates. As such, we have revised
our report to more accurately reflect the action taken by the Agency.




                                             James G. Huse, Jr.
APPENDICES

                                                                                                   APPENDIX A

                                         Commercial Software Inventory

       We scanned 57 Social Security Administration (SSA) servers for software and identified
       216 copies of 22 software applications not inventoried by SSA for Year 2000 (Y2K)
       compliance. Fifty-two of the 57 servers had at least 1 copy of the applications. Also,
       3 of the applications were on 49 of the 57 servers.

                                                                                             Component/Region1
No.           Application                         Vendor             Function          OQA ODO OHA KCR ATR       Total
1      ACT! Registry Backup                      Symantec      Contact Tracking                              2       2
2      Bank Interest Calculator                  Sage          Interest Calculator            1    1                 2
                             2
3      Bounds Views                              Folio         Information Retrieval              10                10
                 3
4      B’Trieve                                  Compsoft      Unknown                   1                           1
5      Codewright Editor                         Premea        Development                                   1       1
6      DisplayWrite                              IBM           Word Processing                               1       1
                                             4
7      Exchange Client for 95                    Microsoft     Communications            7    8    8   13   13      49
                                     4
8      Exchange Server                           Microsoft     Communications                                1       1
                                         2
9      Folio Bound Views                         Folio         Information Retrieval     3        11                14
10     Hyper Access 5                            Hilgraeve     File Transfer             2         1    2    1       6
                 5
11     Jetform                                   Jetform       Form Design                    1              1       2
                                 3
12     Memory Master                             InSoft        Memory Utility                      1                 1
                         3
13     NetRemote                                 Brightwork    Medical Record                     10                10
                                                               Management
14     Outlook4                                  Microsoft     Electronic Mail           7    8    8   13   13      49
15     Pathworks                                 DEC           Server Software                               2       2
                     6
16     PCFocus                                   Information   Unknown                   1                           1
                                                 Builders
17     PERL for NT4                              Activeware    Development                                   1       1
18     Personal REXX                             Mansfield     Development                                   1       1
                                                 Software
19     Print to a File3                          Unknown       Print Uitlity                      10                10
20     SQZ!                                      Symantec      Unknown                             1                 1
21     Textware                                  Unknown       Unknown                        1              1       2
                             7
22     Twain Thunker                             Hewlett       Graphics Utility          7    8    8   13   13      49
                                                 Packard
       Number of Servers Tested                                                          7    8   11   15   16      57
       Number of Copies of Applications on Servers Tested                               28   27   69   41   51     216
       Number of Servers With Applications                                               7    8   11   13   13      52

     See explanation of footnotes on next page.



                                                                          A-1
1
    Component/Region


OQA – Office of Quality Assurance and Performance Assessment


ODO – Office of Disability Operations


OHA – Office of Hearings and Appeals


KCR – Kansas City Region


ATR – Atlanta Region



Applications Omitted From Y2K inventory
2
    Application included with other applications when installed.
3
    Application reportedly not used by component.
4
    Application on an Office of Systems list of nationally distributed software.
5
  Application on inventory under a new product name, Form Flow. However, the vendor
indicated Form Flow is different product.


Applications Not Omitted From Y2K inventory
6
    Application recorded on inventory with a different name, Focus PC.
7
    Software not in itself a separate application, but a graphics utility.




                                                  A-2

                                                                                     APPENDIX B


                   Data Base and Spreadsheet Files

                         With Two-Digit Dates


  We tested 18 servers to identify data base and spreadsheet user files with two-digit
  dates. Fifty-four files containing two-digit dates were identified, of which, 30 were data
  bases and 24 were spreadsheets. These files were identified on 16 of the 18 servers
  tested.


                                      No. of   Total Files     Data    Failed DB2
   Spread    Failed SS3

           Component                   Files   That Failed1   Bases      Files
      Sheets      Files

                                      Tested   No.       %    Tested   No.     %
    Tested    No.     %

Office of Disability Operations          31    6       19       4      1      25      27       5      19
Office of Hearings and Appeals           42    18      43      36      14     39       6       4      67
Office of Quality Assurance              28    12      43      18      5      28      10       7      70
Atlanta/ Birmingham Region               24    6       25      10      4      40      14       2      14
Kansas City Region                       42    12      29      28      6      21      14       6      43
                              Total      167   54      32      96      30     32      71       24     34

  1
      Files containing two-digit date

  2
      Data base

  3
      Spreadsheet

                   APPENDIX C


AGENCY COMMENTS

                                                                          APPENDIX D


 MAJOR CONTRIBUTORS TO THIS REPORT


   Office of the Inspector General

   Gale S. Stone, Director, Systems Audits

   Albert Darago, Audit Manager, Applications Controls

   Wesley Lewis, Auditor-In-Charge

   Carol Ann Frost, Program Analyst

   Richard Ackerman, Program Analyst

   Randy Townsley, Auditor

   Anita McMillan, Auditor



For additional copies of this report, please contact the Office of the Inspector General’s
Public Affairs Specialist at (410) 966-5998. Refer to Common Identification Number
A-14-99-11003.
                       APPENDIX E


SSA ORGANIZATIONAL CHART

